<html>
<title> - U.S. AID TO PAKISTAN: PLANNING AND ACCOUNTABILITY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
           U.S. AID TO PAKISTAN: PLANNING AND ACCOUNTABILITY 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 9, 2009

                               __________

                           Serial No. 111-131

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

65-128 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 























              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         JEFF FLAKE, Arizona
PATRICK J. KENNEDY, Rhode Island     DAN BURTON, Indiana
CHRIS VAN HOLLEN, Maryland           JOHN L. MICA, Florida
PAUL W. HODES, New Hampshire         JOHN J. DUNCAN, Jr., Tennessee
CHRISTOPHER S. MURPHY, Connecticut   MICHAEL R. TURNER, Ohio
PETER WELCH, Vermont                 LYNN A. WESTMORELAND, Georgia
BILL FOSTER, Illinois                PATRICK T. McHENRY, North Carolina
STEVE DRIEHAUS, Ohio                 JIM JORDAN, Ohio
STEPHEN F. LYNCH, Massachusetts      JEFF FORTENBERRY, Nebraska
HENRY CUELLAR, Texas                 BLAINE LUETKEMEYER, Missouri
MIKE QUIGLEY, Illinois
                     Andrew Wright, Staff Director























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 9, 2009.................................     1
Statement of:
    Fair, Christine, Center for Peace and Security Studies, 
      Georgetown University; Andrew Wilder, research director for 
      policy process, Feinstein Center, Tufts University; and 
      Samina Ahmed, South Asia project director, International 
      Crisis Group...............................................     4
        Ahmed, Samina............................................    41
        Fair, Christine..........................................     4
        Wilder, Andrew...........................................    29
Letters, statements, etc., submitted for the record by:
    Ahmed, Samina, South Asia project director, International 
      Crisis Group, prepared statement of........................    44
    Fair, Christine, Center for Peace and Security Studies, 
      Georgetown University, prepared statement of...............     9
    Wilder, Andrew, research director for policy process, 
      Feinstein Center, Tufts University, prepared statement of..    32


           U.S. AID TO PAKISTAN: PLANNING AND ACCOUNTABILITY

                              ----------                              


                      WEDNESDAY, DECEMBER 9, 2009

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2154, Rayburn House Office Building, Hon. John Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Maloney, Lynch, Van 
Hollen, Flake, Duncan, Fortenberry, and Luetkemeyer.
    Staff present: Andy Wright, staff director; Elliot 
Gillerman, clerk; Scott Lindsay, counsel; Steven Gale, fellow; 
Jesse Schwartz, intern; Adam Fromm, minority chief clerk/Member 
liaison; and Lt. Col. Glenn Sanders, Defense fellow.
    Mr. Tierney. Good morning.
    I missed you, Doctor. I think you must have been getting a 
glass of water or something when I came in--nice to see you 
here. Thank you.
    A quorum being present, the Subcommittee on National 
Security and Foreign Affairs, the hearing entitled ``U.S. Aid 
to Pakistan: Planning and Accountability'' will come to order. 
I ask unanimous consent that only the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements. And without objections, that is so ordered.
    I ask unanimous consent that the gentleman from California, 
Representative George Miller, be allowed to participate in this 
hearing. In accordance with the committee rules, he will only 
be allowed to question the witnesses after all official members 
of the subcommittee have had their turn: Without objection; so 
ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days, so that all members of the 
subcommittee would be allowed to submit a written statement for 
the record. And, without objection, that is so ordered.
    So, once again, I say good morning to all of our witnesses 
that are here today. I do appreciate the written testimony. I 
think I mentioned that to Dr. Wilder and Dr. Ahmed earlier, on 
that, as it certainly is food for thought.
    And, Mr. Flake and I were just discussing this: We are 
anxious to hear your testimony. We will try to keep our opening 
statements relatively brief.
    On October 15, 2009, President Obama signed the Enhanced 
Partnership with Pakistan Act. It has been formally known, as 
everyone here knows, as the Kerry-Lugar-Berman Bill. It triples 
the U.S. civilian economic and development assistance to 
Pakistan to $1.5 billion annually, until 2014.
    While Kerry-Lugar-Berman was a largely bipartisan 
demonstration of U.S. commitment of long-term assistance to 
Pakistan, serious concerns remain regarding the ability of 
USAID and the State Department to effectively and efficiently 
manage and account for such a massive increase in assistance.
    In November, I led a congressional delegation to Pakistan 
in order to investigate, among other things, the status of U.S. 
assistance programs, and the State Department and USAID's 
capacity to manage and oversee Kerry-Lugar-Berman funding.
    At the time, Ambassador Holbrooke's team and USAID in 
Pakistan were actively searching for a new delivery model for 
U.S. assistance to Pakistan. I understand that this policy 
review is now almost complete. And I look forward to the 
administration testifying before the subcommittee on their 
plans in early 2010.
    During the congressional delegation, we met with Pakistan's 
civilian leadership and political opposition, and a wide 
variety of civil-society members, NGO's, and international 
contractors. We also traveled to Peshawar to deliver aid 
supplies directly to the principal hospital that has been 
receiving wounded from the many bombings there, over the 
several months preceding.
    No one would be surprised to hear that everyone had a 
different perspective on how the United States could best 
deliver aid. Prime Minister Gilani prefers more aid to be 
funneled through the central government. In the provinces, 
meanwhile, we heard that more money should go straight to the 
provincial government.
    Local NGO's are boasting that they could cut out the high 
administrative fees for international contractors and build 
more domestic capacity. But international NGO's and contractors 
claim that the local players did not have the capacity to do 
so. So, in short, our meetings helped us quickly identify all 
the problems with the various aid-delivery models under 
consideration, but we found no consensus regarding how to go 
forward.
    Clearly, there is no silver-bullet solution for delivering 
aid in Pakistan. More disconcerting than the lack of consensus 
regarding the best aid-delivery model was the lack of capacity 
at USAID in Pakistan.
    For years, USAID has been marginalized and stripped of 
personnel, while, at the same time, U.S. foreign policy has 
increasingly emphasized aid delivery in high-risk conflict and 
post-conflict countries like Iraq, Afghanistan and Pakistan.
    It is no wonder that USAID has become so dependent on 
international contractors to plan, manage and even oversee 
massive development projects. This challenge is only made more 
difficult by the current security environment that makes it 
extremely difficult for either USAID personnel or Western 
expats, to actively manage or oversee many projects, 
particularly those in the federally administered tribal areas 
and the Northwest Frontier Province of Pakistan.
    As a result, both USAID and international contractors are 
often entirely dependent on sending third-party locals to 
verify and account for major development and assistance 
projects. Although I understand the temporary security needs of 
these oversight workarounds, I have a serious concern about 
USAID's ability to provide long-term oversight and 
accountability of major projects without ever even seeing them 
in person.
    I plan to continue to work with Congress and this 
administration to bolster USAID's internal staffing and 
capability. We have to reverse USAID's decline of the last 
decade, if it is to serve as a central tool of U.S. foreign 
policy in South Asia or the Middle East, a task that it has 
been assigned, but not given the tools to fulfill.
    In the meantime, however, any new plan for U.S. civilian 
assistance to Pakistan must factor in USAID's limited 
capacity--both limited personnel to actually manage and oversee 
contracts, and for security reasons, limited visibility on many 
of its projects.
    For today's hearing, we have brought together three experts 
with a great variety and depth of experience in both Pakistan 
and U.S. assistance program. I don't expect any of them to 
provide the silver-bullet solution.
    But I do hope that you can give us some fresh perspectives 
on this very difficult challenge. And, of course, to the extent 
that you have that silver bullet, don't hesitate to share it. 
Thank you.
    Mr. Flake.
    Mr. Flake. I thank you, Mr. Chairman.
    And I thank the witnesses.
    I share the concerns that the chairman has expressed about 
the pace of this aid going in. It seems to be more supply side 
driven, rather than demand-side, at this point. I also share 
the concern, and I understand the issues with regard to 
security. But the inability to actually see where some of this 
money is spent in the end, is troublesome for a committee that 
provides oversight.
    So I am anxious to hear the testimony. And I look forward 
to the administration witnesses in the new year, to hear what 
they have planned going ahead, to remedy the situation.
    But thank you for coming.
    Mr. Tierney. Thank you, Mr. Flake.
    The subcommittee will now receive testimony from the panel 
before us today. I would like to just briefly introduce the 
entire panel, and then we will start with Dr. Fair.
    Doctor Christine Fair is an assistant professor with the 
Center for Peace and Security Studies at Georgetown 
University's School of Foreign Service. She previously served 
as a senior political scientist with the RAND Corp., a 
political officer to the United Nations Assistance Mission to 
Afghanistan in Kabul, and as a senior research associate at the 
Center for Conflict Analysis and Prevention at the U.S. 
Institute for Peace.
    Her current research focuses on political and military 
affairs in South Asia. She holds a Ph.D. from the University of 
Chicago.
    Dr. Andrew Wilder is the research director for policy 
process at Tufts University's Feinstein Center. Prior to 
joining the center, he worked in Afghanistan, where he 
established and directed Afghanistan's first independent policy 
research institute, the Afghanistan Research and Evaluation 
Unit.
    Between 1986 and 2001, Dr. Wilder worked with several 
international NGO's, managing humanitarian and development 
programs in Pakistan and Afghanistan. His research and 
publications explore the politics of civil service reform and 
electoral politics and policies in Pakistan.
    He holds a Ph.D. from the Fletcher School of Law and 
Diplomacy at Tufts University.
    And our friend, Dr. Samina Ahmed is the International 
Crisis Group's South Asia project director. She has testified 
from Pakistan to here, by video, before, as I understand, Dr. 
Wilder has also done, on at least one occasion, and, maybe, Dr. 
Fair, for all I know.
    You haven't been on the video yet? We will get you there.
    But we appreciate the fact that you have traveled all the 
way here today, from Pakistan, to work with us.
    Based in Islamabad, Dr. Ahmed oversees ICG's work in 
Pakistan, Afghanistan, India and Nepal. Prior to joining ICG, 
she held research positions at Harvard University's Kennedy 
School of Government, and the Institute of Regional Studies.
    Her areas of expertise include South Asian affairs, 
democratic transitions in authoritarian states, and ethnic and 
religious conflict. She holds a Ph.D. from the Australian 
National University.
    We appreciate that all of you came here today, and that you 
are going to share your testimony.
    As I have said, we have read your written testimony with 
great effect. I do note that if you were to deliver your 
written testimony each of you would be significantly over 15 or 
20 minutes. We would like to have some time for questions and 
answers.
    So if you could verbalize, in about 5 or so minutes--we are 
not going to drop the hammer at exactly 5--but shorter than it 
would be for the entire presentation of the written testimony--
that written testimony will be put on the record by unanimous 
consent. And we will have that and all those that haven't a 
chance to read it will read it.
    So first let me swear in the witnesses. It is our practice 
to do that before every hearing.
    [Witnesses sworn.]
    Mr. Tierney. The record will, please, reflect that all of 
the witnesses have answered in the affirmative.
    And, Dr. Fair, if you would be kind enough--to begin?

  STATEMENTS OF CHRISTINE FAIR, CENTER FOR PEACE AND SECURITY 
    STUDIES, GEORGETOWN UNIVERSITY; ANDREW WILDER, RESEARCH 
     DIRECTOR FOR POLICY PROCESS, FEINSTEIN CENTER, TUFTS 
  UNIVERSITY; AND SAMINA AHMED, SOUTH ASIA PROJECT DIRECTOR, 
                   INTERNATIONAL CRISIS GROUP

                  STATEMENT OF CHRISTINE FAIR

    Ms. Fair. This isn't on? Oh, there we go. Sorry about that.
    As a non-USAID practitioner, my comments will draw off my 
own experience in Pakistan since 1991 as an Urdu speaker who 
has traveled throughout the country, from survey work that I 
have conducted with various collaborators, as well as from 
reviews of the relevant secondary literature.
    As we know, since 9-11, aid has become very much a tool in 
the global war on terrorism. Yet, in my interactions with 
Pakistanis since 9-11, many persons have communicated a deep 
awareness of and, quite frankly, discomfort with Washington's 
instrumentalism of its assistance, as I note at length in my 
written statement.
    Pakistanis complain bitterly about the modalities of USAID, 
noting the provision of large sums of cash without significant 
oversight and monitoring actually fosters corruption. This has 
fostered a deep cynicism that Washington explicitly seeks to 
ensure that Pakistan remains weak, riddled by corruption, and 
more vulnerable to international pressure, generally, and that 
of the United States, in particular.
    As I described in my written statement, beliefs about 
corruption, in some measure, drive Pakistani popular support 
for Sharia, and that draws from the survey work that I have 
done recently. It is not clear that these perceptions can be 
managed through a public diplomacy campaign, howsoever 
sophisticated.
    Arguably, if the United States wishes to move public 
opinion in Pakistan, it will have to change how it works with 
Pakistan, and engages its citizenry.
    Moving forward, considerations for future USAID programming 
in Pakistan, it is certainly, as you noted, easier to identify 
the problem, than it is to offer effective solutions. Yet, I 
present a number of steps and considerations that may be useful 
as USAID reconsiders its future aid-delivering mechanisms in 
Pakistan.
    First, there is a dire need to better discern Pakistani 
preferences. USAID personnel have conceded that the pressures 
to execute does not allow effort to discern Pakistanis' 
preferences, which is critical to generally demand-driven 
programming. This results in supply driven programming that may 
not address the needs and aspirations of Pakistanis, and even 
engender frustration with the foreign-driven agenda. I provide 
lengthy examples of current efficiency in this regard, in my 
written statement.
    Equally important, USAID does not collect data to inform 
their branding decisions, which is absolutely strange, given 
the technical expertise to do this sort of market research in 
Pakistan. There is a shocking paucity of robust data about 
Pakistanis, generally, the views they have on a wide range of 
domestic and foreign policies, the sources of information that 
Pakistanis access and which inform their views, and the 
legitimacy and trustworthiness of various sources of 
information.
    For years, development economists have debated the vices 
and virtues of community-based development programming. 
Unfortunately, there is no obvious way to resolve the debate 
between community-based development and those provided through 
sub-national, or even national channels, because there are 
really no robust studies of the relative benefits of any of 
these mechanisms.
    World Bank analysts Mansuri and Rao have conducted an 
extensive review of community-based development projects. And 
they conclude that the success of these initiatives depend 
critically upon local, cultural, and social systems.
    And, ``It is, therefore, best done not with wholesale 
application of best practices applied from projects that were 
successful in other contexts, but by careful learning by doing. 
This requires a long-term horizon, and willingness to engage in 
a monitoring-and-evaluation process that is not only rigorous, 
but is designed to allow for learning and program 
modification.''
    This description is exactly what USAID seems ill-positioned 
to do. Yet, the literature suggests it is not a luxury, but 
rather a necessity.
    It is worth reflecting upon the role of NGO's, in 
particular--certainly, since you mentioned them--given that one 
likely movement away from a large institutional-contractor 
approach, with their high overhead, may be to increasingly rely 
on Pakistan-based NGO's.
    I think many people on this panel can attest that NGO's are 
seen with considerable dubiety in Pakistan, ranging from, ``the 
personal hobby of elite housewives,'' to, ``mechanisms to 
basically take money from the U.S. tax dollars, and put them 
into the pockets of those that run those NGO's.''
    So it is absolutely critical that USAID discern which NGO's 
are credible and, most importantly, which ones are seen as 
credible. In my testimony, I suggest that it might be useful 
for USAID to set up the kind of mechanism that we have here in 
the states that puts transparency into NGO's--the way they use 
expenditures, their service delivery and so forth.
    Those sorts of systems might be able to, over time, 
increase public confidence in NGO's because they can discern 
more credibly which ones do their job and which ones are 
basically rent-seeking organizations.
    But there are other potential problems associated with 
using NGO's--and I cite some studies of this in my testimony--
mainly the civil-society organizations. Sorry for the 
abbreviation. Civil-society organizations that rely upon 
external funders oddly enough become less capable of mobilizing 
social capital in strengthening their civil societies. And that 
is because their constituencies become the funders, not 
memberships. So this is certainly a principal-agent problem 
that USAID will have to deal with if they pursue programming 
through NGO's.
    One of the methods that I have advocated with my World Bank 
colleagues is actually using the markets and generating demand 
for change. One of the examples that I give pertains to 
education. Given the pervasive problems with some important 
ministries, USAID may want to consider pursuing private-sector 
solutions to public-sector problems, which are better pursued, 
quite frankly, by Pakistanis.
    I look at the education-sector reform. And I argue that 
Washington has very little scope to change either the madrassa 
curriculum, or the public-school curriculum. And, in fact, 
Washington's effort to do so is really seen as efforts to de-
Islamize. And this has produced a number of backlashes against 
U.S. efforts, which I have written about, at least, elsewhere.
    One of the things that the World Bank has actually done in 
experiment is that they provide report cards for student and 
teacher and school performance. And what is interesting--when 
there is a cost-neutral way, parents actually shift to private 
schools. There is a lot of misunderstandings about private 
schools and their cost structures. As I say in my testimony, 
private schools are the fastest-growing segment in Pakistan. 
They are actually one of the most efficient ways of delivering 
a higher-quality education, for reasons I discuss at length.
    Another way forward that work suggests to me is actually 
information-based programming. What USAID does, in many cases, 
is it tries to supply a reform from some sort of government 
agency. The example I give in my testimony is corruption. So 
efforts to clean up corruption, be it in the police or in a 
particular ministry, are likely to fail because Pakistanis 
themselves are part of the corruption system.
    So any mechanism that engages in civic education to sort of 
communicate to Pakistanis that they, themselves, participate in 
the corruption problem--that corruption is not simply done to 
them--might be a way of buttressing the supply driven aid--so, 
in other words, trying to create demand to support the supply 
driven effort.
    The final set of issues that I look at, given that aid has 
been securitized, especially since 9-11--but one could make the 
argument that aid to Pakistan has been securitized since 1947--
is that there is simply no evidence that demonstrates that 
securitized aid actually meets these objectives.
    I provide two examples that were conducted by a team led by 
Jacob Shapiro at Stanford, and his colleagues. And he uses the 
case of Iraq. And I want to note that he has to use the 
Commander Emergency Response Program funds because USAID funds 
were so encumbered with multilayers of contracting that it 
simply made doing the analysis impossible, whereas CERP was 
actually much more direct in assessing its outcomes.
    What they found with the CERP funds is that delivering 
community service actually resulted in a a modest decrease in 
violence; but that the monitoring and the understanding 
requirements of achieving this modest result were really quite 
onerous.
    In contrast, in a similar study that he did with his 
colleagues on unemployment in Iraq, he actually found that 
unemployment was negatively correlated with violence. So, in 
other words, the more unemployment there was, the less violence 
there was.
    So if you look at the literature, you will find that there 
is, ``simply not evidence,'' it says, that ``securitized aid 
achieves the objectives that are specified in various 
documents, putting aid as a part of the counterinsurgency 
problem. I think Dr. Wilder's experience certainly buttresses 
that.
    So, in conclusion, a review of the literature, coupled with 
my own experience in the country, does suggest that there is no 
magic bullet, and there is no substitute for experimentation 
and rigorous evaluation. Indeed, there is a strong argument to 
be made for experimenting with different forms of aid 
delivery--through NGO's, through sub-national, as well as 
national, means, and different levels of involvement of local 
communities, as well as oversight mechanisms.
    In subjecting these pilot programs to robust assessment, 
preferably with some degree of randomization to determine the 
impact of these interventions on the treatment group--effective 
programs should be retained and applied to other areas with 
appropriate analysis and re-optimization. And ineffective 
programs--and, heavens knows, there are quite a bit of those--
should be eliminated unless they can be implemented 
successfully elsewhere in the country, with suitable 
modification.
    Admittedly, this will be difficult for USAID, given the 
pressure that the Nation is under to execute programs, 
permission and priorities, given the security environment, as 
well as the potential ethical concerns about risks inherent in 
fielding different experimental programs in different areas. 
But I want to point out there is no a priori way of knowing 
that the non-randomized approaches that they currently use 
offer any benefit at all.
    Given the frustration that Pakistanis have expressed about 
U.S. intentions, and the explicit securitization of aid, it is 
important to assess whether the benefits of USAID interventions 
in mitigating violence and anti-Americanism are sufficiently 
significant in size and scope relative to the public-relations 
problems such securitized aid appears to pose. Thank you.
    [The prepared statement of Ms. Fair follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. I note that we are one-third of the way 
through, without the silver bullet. So we have to keep moving 
on this.
    Dr. Wilder, please.

                   STATEMENT OF ANDREW WILDER

    Mr. Wilder. Distinguished members of the committee, thank 
you for asking me to testify today. I was born in Pakistan--
lived, worked and studied there for about 30 years. So the 
topic of today's hearing is something that is important to me 
personally, as well as professionally.
    I have firsthand seen some of the very positive effects of 
U.S. aid to Pakistan. But I have also seen some of the damage 
done to the U.S. image in Pakistan, as well as to development 
efforts in Pakistan, of the sort of feast-and-famine approach 
to development aid to Pakistan.
    These feasts and famines, I argue, have both been harmful. 
And they result from what I believe is a misplaced faith in the 
effectiveness of aid in promoting security objectives, rather 
than just development objectives.
    My testimony today is based on a study I am doing at the 
Feinstein Center, basically looking at the issue of: How 
effective is aid in promoting security objectives? And our main 
finding to date is that, while development assistance can be 
very effective in promoting humanitarian and development 
objectives, there is actually remarkably little evidence that 
it is effective in winning hearts and minds, and promoting 
security objectives.
    Developing an aid program first and foremost to achieve 
security objectives rather than development often fails to 
achieve either. And I will argue that it, in some cases, can 
actually do more harm than good.
    U.S. national security interests have always have a major 
influence over our foreign-aid programs, and how our foreign-
aid dollars get spent. But I think, not since Vietnam have we 
seen aid so explicitly viewed as a weapons system, especially 
in counterinsurgency contexts. And I think this is illustrated 
by the recent publication in April of this year by the U.S. 
Army of the handbook called, ``The Commander's Guide to Money 
as a Weapons System,'' which provides guidance on how to use 
money to ``win the hearts and minds of the indigenous 
population to facilitate defeating the insurgents.''
    This assumption that aid can win hearts and minds is widely 
held by policymakers and practitioners alike. And it is having 
a major impact on our aid policies, as well as our 
counterinsurgency policies. It is resulting in a sharp increase 
in aid to countries like Pakistan and Afghanistan. And it has 
also resulted, within those countries, in a disproportionate 
amount of aid being programmed to the most insecure areas, 
rather than secure areas.
    So when I am doing my research in Afghanistan, in the 
central and northern parts of the country, you often hear 
bitter complaints from Afghans there, as to, ``Why are we being 
penalized for being peaceful?'' because the lion's share of 
U.S. development aid is programmed to the insecure regions of 
the south and southeast.
    And we see a similar thing in FATA--the $750 million over 5 
years to FATA--the federally administered tribal areas--where 
only 2 percent of Pakistan's population live--I, think, also 
reflects that tendency.
    And I think policymakers should be aware that given how 
widespread this assumption is, and given its powerful impact on 
our aid and our counterinsurgency policies, there is remarkably 
little evidence to actually show that aid is an effective 
weapons system, or is effective in winning hearts and minds in 
contexts like Pakistan and Afghanistan.
    I think the Pakistan earthquake response is a very good 
example of this. I was personally involved in that. I saw 
firsthand the tremendous response of Pakistani citizens, first 
of all, the Pakistan army, and the international community, led 
by the United States, to what was a very effective humanitarian 
response to the earthquake.
    The United States was the single largest donor to that 
response--$510 million was fairly rapidly programmed, as well 
as 23 helicopters--provided lifesaving assistance in the 
aftermath of the earthquake.
    I think the United States would have responded with 
humanitarian aid to a disaster of that magnitude anywhere in 
the world; however, there is no doubt that the scale of the 
response in Pakistan was affected by the desire to win hearts 
and minds and gain additional support from a war-on-terror 
ally.
    The Wall Street Journal, in an editorial shortly after the 
earthquake, referred to this as, ``One of America's most 
significant hearts-and-minds successes so far in the Muslim 
world.'' And there is a widespread perception that this 
response did win hearts and minds.
    I am arguing, though, that, in reality, that benefit was 
actually quite minimal. A public-opinion poll done just a month 
after the earthquake did show a sharp boost in Pakistani public 
opinion toward the United States from--it went from 23 percent 
prior to the earthquake, to 46 percent; however, the next time 
that poll was done--6 months later--public opinion was back 
down to 26 percent. And, then, the Pew CERP poll showed it was 
down to 15 percent. And, today, I think we are around 16 
percent.
    So, again, there maybe was a very short-term benefit to 
that $500 million in earthquake response, but not long-term.
    And I think the point there is that was an incredibly 
effective humanitarian response, but with limited hearts-and-
minds benefit.
    My research from Afghanistan shows similar results. We have 
found that Afghanistan development aid, carefully programmed, 
can have very effective and positive development outcomes. But 
there is very little evidence that the billions now being spent 
on aid to Afghanistan is actually translating into significant 
hearts-and-minds benefits or stabilization benefits.
    At a time when more aid is being given to Afghanistan than 
ever before in its history, the popular perception of aid in 
Pakistan is nearly universally negative.
    Our field research in Afghanistan not only shows that aid 
is not winning hearts and minds, and having a stabilizing 
effect, but the sheer volume of that aid, especially in the 
insecure areas, can actually have destabilizing effects.
    There are many ways in which it can do that--aid can create 
winners and losers in that zero-sum society, or perceptions of 
winners and losers. There is mounting evidence about how the 
political economy of aid and security contracting can actually 
result in significant amounts of money ending up being paid to 
the Taliban by construction companies as protection money for 
their road-building and other construction projects in these 
insecure areas.
    But the most important way in which I think aid is 
destabilizing in Afghanistan is its role in fueling corruption. 
And it is nearly inevitable in a highly insecure area with 
limited implementation and oversight capacity that large 
amounts of aid in those areas are going to fuel corruption.
    This corruption, in turn, has a very corrosive, I think, 
and destabilizing effect, by reducing the legitimacy of the 
Afghan government. And while donors in the United States and 
people are rightly criticizing the Afghan government in terms 
of its not cracking down on corruption, I think we need to be 
looking at ourselves, because our aid money is contributing to 
that problem by, I think, providing too much with too little 
oversight, in that context.
    Although I have not done the research in FATA yet--but I 
suspect that--and similar environment, a highly insecure area 
in the border regions of Pakistan--large amounts of aid could 
also have similar effects.
    So, in conclusion, I believe that prioritization since the 
1960's, actually, of security over development objectives has 
been one of the main factors undermining the effectiveness of 
U.S. development aid to Pakistan.
    And with the passage of the $7.5 billion Kerry-Lugar Bill, 
an amount that exceeds the total U.S. aid spending since the 
start of this program in 1951 through 2007, it is more 
important than ever before to question how U.S. aid to Pakistan 
can be spent more effectively and accountably.
    With U.S. foreign aid now explicitly viewed as a weapons 
system in counterinsurgency contexts, before appropriating 
billions more dollars, I urge this subcommittee and Congress to 
demand more evidence that it is an effective weapons system. It 
is hard to imagine that the United States would go to battle 
with any other weapons system whose effectiveness is based to 
such a great extent on unproven assumptions and wishful 
thinking. Thank you.
    [The prepared statement of Mr. Wilder follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you, Dr. Wilder. I appreciate that.
    Dr. Ahmed.

                   STATEMENT OF SAMINA AHMED

    Ms. Ahmed. Thank you, Mr. Chairman--a pleasure to be here 
and to testify at this very important hearing.
    Let me start off by saying that: Is U.S. aid desirable in 
the Pakistani context? Yes, it is. Is it needed in the 
Pakistani context? Yes, it is. How effective will that 
assistance be? That will depend on the mechanisms that are used 
to provide that assistance. That will also depend on the 
oversight of that assistance by the U.S. Government, but also 
by the U.S.-Pakistani counterparts.
    If these counterparts are indeed representative of their 
communities, are themselves accountable, and the processes that 
are used are transparent, then, this assistance that has been 
allocated to Pakistan--the $1.5 billion a year, under the 
Enhanced Partnership with Pakistan Act, as well as the $750 
million, of which, we know, very little, as yet, has been spent 
on FATA--would that be effective? I don't think there is 
absolutely any doubt about it.
    The problem lies in the fact that we are looking at 
assistance in the Pakistani context; also, in the context of 
Pakistan's relationship with the United States in particular. 
Relations with the United States in the last 10 years--
Pakistani perceptions were shaped by U.S. assistance to a 
military regime, which is why this still is important--which is 
why, also, as this committee knows, they want a push-back by 
those institutions within Pakistan that feel strengthening 
civilian partners would undermine their own internal standing.
    Specifically in the context of FATA, let me just say this: 
Having spoken to FATA representatives, having spoken to FATA 
stakeholders, folks who belong and live and will be the 
recipients of this community--do they want it? Yes, they do. Do 
they believe that it is going to be effective? Under the 
present circumstances, no, they don't.
    Is that because there is a flaw in the way assistance is 
being provided? I go into great detail in the testimony on the 
problems that USAID and its implementing partners face in FATA 
itself. And the real problem in the fact that this assistance 
cannot be delivered as effectively as it should lies in the 
larger political framework that exists, the mechanisms--the 
bureaucratic mechanisms that are there in place.
    If there is no political reform--and we have stressed upon 
that very strongly--this is a civilian government. It is an 
elected government. It understands the importance of reaching 
out to the communities; it also understands the importance of 
winning the peace. But without that reform agenda--and the 
first beginnings of that reform agenda have just been 
suggested--there has been a push-back, again, by the military, 
as far as this reform agenda is concerned.
    Until there is political reform in FATA--USAID and its 
implementing partners--it doesn't matter if they are local 
NGO's, international NGO's, or beltway bandits--are going to 
have to work through the FATA secretary, through the FATA 
development authority, and the political agents. This entire 
bureaucracy and its clients do not have any links to the 
community, nor have they any interest in consulting the 
communities.
    Let me also say this: While we are talking about what is 
happening within the FATA context, we have a very large 
proportion--almost a third of the residents of FATA--who are 
now internally displaced because of the conflict, because of 
military operations, because they are caught between the 
military and the militants.
    Delivering assistance to these communities, I think, is one 
way to reach the communities that are still within FATA. It is 
a mechanism that can be used. What will be important is for 
everybody, I think, to understand that as these operations 
end--when they end and how they end--also matter. If they are 
just going to see militant leaders moving from one agency to 
the other to make a return, with no safety and security for 
residents--it is not going to make any difference.
    If there is no comprehensive relief, secure return and 
reconstruction plan for the IDPs, with U.S. assistance, the 
civilian government will lose whatever credibility it has. So 
that need for political reform and the importance of making 
sure that the political structures in FATA are, indeed, 
accountable and transparent means that there needs to be, 
first, support for the reform agenda, which is just the 
beginnings of opening the doors to political reform in FATA--
but also an understanding that unless these--there are 
mechanisms that are put in place for community and civil-
society participation, as well as--and let me emphasize this--
with the elected representatives of the Pakistani parliament in 
the province--Northwest Frontier Province--and in the center--
in the national assembly--that is, I think, a mechanism that 
has, of yet, not been used, and could be used to far greater 
effectiveness.
    These are folks who know, as indeed, Members of the 
Congress do, the needs of their constituents. These are also 
people who are accountable to those constituents and will win 
or lose elections based on their performance.
    Bringing them into the process of aid delivery in terms of 
oversight would make a huge difference. Insecurity will be used 
also, deliberately, to deprive even those international 
humanitarian organizations and development organizations that 
would want to risk going into these insecure conflict zones. 
And there, I think, again, international humanitarian law is 
something which is absolutely essential when we are looking at 
how this conflict is playing out.
    Preparing the ground for a safe and secure return for the 
IDPs--and we talked about the situation after the earthquake--
let us not forget what happened after the earthquake. Right 
after the earthquake, the relief and reconstruction that was 
supposed to take place was taken over by a military apparatus. 
There was no link to the community. There was no understanding 
of the needs of the people. That is what we don't want to see 
happen again in these conflict zones as people begin to return 
home; and, indeed, millions already have in Malakand Division.
    On the whole, as far as the entire project is concerned of 
USAID assistance--there are going to be difficult choices. 
There are no silver bullets, unfortunately. But what does 
matter is that if they see transparency, accountability, and 
the mechanisms--the democratic institutions and mechanisms that 
are there now, in this nascent democracy, being utilized by the 
American partners on the ground--that is, possibly, an 
effective way to go. Thank you, sir.
    [The prepared statement of Ms. Ahmed follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Well, thank you, Doctor. I appreciate that. 
And, again, you were very helpful to us when we were actually 
there, getting some insight into the Northwest Frontier 
Province and FATA.
    I have to say, it is not entirely encouraging to listen to 
what we have heard this morning, nor was it that encouraging, 
frankly, during our visit--a little short of a week that we 
spent there, talking to any number of parties. It made some of 
us wonder--this ``securitization of aid,'' I think, is the way 
that Dr. Fair put it in her testimony--this whole 
counterinsurgency theory that if we somehow meld the security 
aspect with the development aspect, and we are going to contain 
and combat and mitigate terrorism--it doesn't seem to have a 
great deal of validity in terms of studies or reports or any 
evidence to support it.
    It doesn't seem to promote peace. It doesn't seem to be 
mitigating any conflicts. It certainly doesn't seem to be 
dissuading populations from embracing extremism. And, in fact, 
if I listen to Dr. Wilder and Dr. Fair, in particular, it seems 
to be fomenting distrust and encouraging rampant theories of 
U.S. animus toward Pakistanis, in fact. It makes us wonder 
whether or not we are wrong, when we look at our approach to 
counterinsurgency policy.
    Do you see, Dr. Wilder--your work is directly contradicting 
the counterinsurgency theories that are abounding?
    Mr. Wilder. It is questioning a central tenet of the 
counterinsurgency strategy. And I think there has been very 
much focus, and all the debate is on troop numbers. But in the 
coined mantra of ``clear, hold, build,'' the build piece 
actually doesn't get much questioning.
    And I want to emphasize I have been a development worker 
most of my life. I am a strong believer in the importance of 
development and development aid. But I think that, you know, we 
shouldn't assume that development aid can defeat these--or have 
a big impact on what is driving conflict in some of these 
contexts.
    And we are hoping to shift our research more into Pakistan 
during this coming year. But if you look at what is driving 
conflict in Afghanistan, but I also suspect in the border 
regions, it is actually, I think, not, first and foremost, 
poverty or lack of infrastructure or lack of social services. 
All those things are important, and we should be trying to 
address those because those are important for development's 
sake.
    But those are not the things fueling the conflict. So I 
don't think we should assume that by spending hundreds of 
millions of dollars quickly in a context like that, it is going 
to change the conflict dynamic. And, as I said, what is 
alarming from Afghanistan is, indeed, that actually that 
assumption is exacerbating the problem by fueling corruption, 
which I think is a big issue that de-legitimizes governments 
and actually creates instability.
    Mr. Tierney. I ask this of all three of you--would I be 
misreading your collective testimony if I said that I see in 
there some indication that we ought to sever the concept of 
development and aid from security? We ought to make sure that 
we take the time to collect the data, analyze it and implement 
the best delivery model--or whether or not any particular NGO 
or series of NGO's are the best people, or the government is 
the best people to deliver it--and recognize sort of a need for 
having quality projects with great impact, as opposed to a 
large number of projects and a quick disbursement of the money.
    Dr. Ahmed, is that a fair statement to----
    Ms. Ahmed. There needs to be a framework within which aid 
is dispersed. Let me say this: From my experience in 
Afghanistan--and I have worked in Afghanistan since--actually, 
for the last 25 years, but I have had a standing office in 
Afghanistan since January 2002--our concern was with that big 
project, that ring road, all that money put into that one high-
profile project, when the needs were quite different on the 
ground. So I do think that one needs to do a little bit of a 
balancing act before all the money is put in--for example, in 
the Pakistani context, as is being suggested--into either 
energy or water--one high-profile $200 million project, without 
actually understanding the politics and more.
    And I think it is going to be crucial--let me just say 
about one issue--water. This is the most contentious of 
resources within Pakistan. It is the Federal framework. All 
four Federal units are, you know, basically, fighting over a 
very scarce resource.
    So doing the homework beforehand, and then determining if 
this is going to be desirable, without the kind of consultation 
you need on the ground--I would hesitate to go down that road.
    Mr. Tierney. Doctor.
    Mr. Wilder. If I could just--I would--I also wanted to 
emphasize that--I am not saying that there is not going to be 
an effect anywhere. I think you need to do that research, and 
look at each individual context, because they differ. It could 
be that conflict in some country is actually generated due to 
disputes over natural resources.
    And a very conflict-sensitive aid programs that looks to 
try to address that, where the different competing communities 
can--you can have a win-win situation. In that context, aid 
could mitigate, you know, a conflict there.
    My point is, though, in Pakistan-Afghanistan context, I 
don't see that those are the main factors driving the 
insurgency and, therefore, will not be the main factors that 
mitigate them.
    And just in terms of the aid effectiveness, I think when we 
are trying to spend it to achieve the security objective, as 
the security gets worse and worse, we try to spend more and 
more. And that is what we see in Afghanistan. We see no 
evidence that where we have spent most of our money the 
security has gotten any better. If anything, it has gotten a 
lot worse.
    And I am not arguing causality there, but I think it 
creates this vicious link.
    Mr. Tierney. Yes, I mean, I think there is a lot of 
political pressure coming from this country, and the 
policymakers here or whatever, thinking that because we have 
had such theories of counterinsurgency put out there now, and 
the idea of tying this development into security--we have this 
notion that, well, giving a large amount of money has to go to 
work tomorrow; we have to see something happening tomorrow.
    And, unfortunately, what we have seen happening is 
spending, but not necessarily results.
    Mr. Flake.
    Mr. Flake. Go ahead. Did you have something to say? Go 
ahead and----
    Mr. Tierney. No, fine. Mr. Flake is going to do that. And 
we will give him a little more time on the other side, so that 
is good.
    Mr. Flake. Thank you.
    Mr. Tierney. Thanks.
    Go ahead, yes.
    Ms. Fair. So, in April, with my colleagues, we conducted a 
6,000-person survey which is--allows us to----
    Mr. Lynch. I am sorry. Mr. Chairman, could you----
    Ms. Fair [continuing]. Talk about things----
    Mr. Lynch. Could you pull your mic out just a little bit?
    Ms. Fair. Oh, I am sorry.
    Mr. Lynch. Thank you.
    Ms. Fair. So, in April, with various colleagues, I 
conducted a survey of 6,000 Pakistanis, which allow us a lot of 
granularity at the sub-national level. We were explicitly 
looking at: Why do Pakistanis support different militant 
groups?
    And what we have really come--what we have drawn from that 
survey--and I am happy to present different results to you, if 
you are interested--it is really about the politics of the 
militant groups. And they distinguish across the different 
militant groups, ranging from the Kashmiri groups, all the way 
down the Al Qaida, the Afghan Taliban, and the sectarian 
groups.
    And it is not driven by economics in any consistent way. It 
is not driven by educational background in any consistent way. 
In fact, those variables behave very differently when you look 
at different militant groups.
    So when I look at all of the policy documents that drive 
USAID, using securitized aid as a part of COIN, I myself cited 
the inter-agency COIN manual. Again, there is just no evidence. 
It seems to be driven by the politics of these militant groups 
in whether or not people support what those groups do.
    Mr. Flake. Thank you.
    Dr. Ahmed, you had talked about, obviously, the problem in 
FATA, in particular making use of the existing government 
officials and institutions within government, as opposed to 
international NGO's. I mean, understanding that we need to move 
quickly there, how do we do it? And, then this kind of goes 
into what Dr. Fair talked about in her written testimony, 
about--you know, you ought to have two tests--whether somebody 
is trustworthy in the eyes of the U.S. taxpayer, for example, 
or the U.S. Government, and whether they are trustworthy in 
terms of the target population there.
    How do you balance that in FATA, recognizing although it is 
a small segment of the population, it is a troublesome area 
where we do want to win hearts and minds, or whatever you want 
to say. But recognizing we have to move quickly, how do you 
balance the need to target the population directly there, and 
make use of organizations or institutions that are up and 
going? Or are there sufficient NGO's that are ready to move, 
that we can ignore the troublesome elected officials or 
appointed officials, or whoever is within government there?
    Do you want to illuminate a little, in FATA, in particular?
    Ms. Ahmed. FATA is a case apart from the rest of Pakistan. 
And I think that is one thing that could--should be recognized 
from the outset. The bureaucracy we are talking about in FATA 
is a separate bureaucracy because of the way that it is kept 
apart from the rest of the country in constitutional terms.
    The reason why this bureaucracy is in absolute control of 
whatever happens on the ground is because of the rules of the 
political, constitutional, and legal game. And that is why this 
bureaucracy is such an impediment. It is the least transparent. 
It is the least responsive to local community needs because it 
doesn't have to be.
    You know, FATA residents have no political rights, no civil 
rights, no legal rights because of the structures that are 
there in place. Our concern is if you want to--if the 
assumption is that the government of Pakistan is who we should 
be working with, yes. The government of Pakistan is actually 
the provincial government. It is a Federal Government.
    And, then, you have a very separate sub-sect of that 
government, which is the FATA bureaucracy. Our concern is----
    Mr. Flake. Does----
    Ms. Ahmed [continuing]. In the specific context of FATA, is 
this bureaucracy going to be an efficient way of dispersing 
assistance that will reach the communities? This bureaucracy 
doesn't even have any links to the communities. It works 
through its own clients.
    Are there NGO's, local or international, that have a track 
record of working on FATA? Yes, there are. Do they have the 
capacity of dealing with large amounts of money? No, they 
don't.
    So one will really have to look at how you can factor in--
how do you actually consult the communities? There are elected 
representatives from FATA. They don't have legal parts under 
the present political setup. But they have some links to their 
constituencies--not great.
    There is the Northwest Frontier Province, let us not 
forget. I think Dr. Wilder talked about this. Let us not forget 
that, you know, there are links between these areas.
    It is an artificial distinction between FATA and the rest 
of the Northwest Frontier Province. And, there are no real 
security issues involved in actually ensuring that you can 
access the leadership of FATA civil society.
    Do you know there is a FATA union of journalists, a FATA 
union of lawyers. It is not as though there is no civil society 
and no community that can be accessed. If you work specifically 
only through this bureaucracy, you will lose that opportunity 
of accessing the communities completely.
    Mr. Flake. All right.
    I mean, we have a problem in Pakistan, in general, with--
when aid is delivered via the government, that the target 
population views that skeptically, because they don't trust, 
particularly, some of the military institutions. You are saying 
that is even more so in the FATA, because they don't have the 
links to the target population, so it is----
    Ms. Ahmed. Absolutely.
    Mr. Flake [continuing]. Even more difficult.
    Ms. Ahmed. And more so, let us not forget, as far as the 
IDPs are concerned--and that is a huge number of FATA residents 
that can be accessed today, if need be.
    Mr. Flake. Right.
    Ms. Ahmed. The military presents access--full humanitarian 
access or access to development agencies--to these 
communities--and I think that is a clear message that should be 
sent from Washington--that when we give our money--our 
taxpayers' money--we are not going to give it to institutions 
that are not transparent, that are not accountable. And we, 
certainly, have no intention of bypassing the communities that 
will be the beneficiaries of this assistance.
    Mr. Flake. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you.
    Mr. Luetkemeyer? You are recognized for 5 minutes.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    In our paper on this, it indicates that aid to Pakistan is 
divided into five different categories--economic growth, 
educational, health, governance, and human assistance, as well 
as major assistance with the development of the FATA areas.
    Can you give me a breakdown of--any of the three of you--
whoever wants to jump in on this--with regards to these 
categories--the amount of money that we are spending on each 
one, the importance of that? Is one of a higher importance than 
the other--you have pretty well touched on our problems with 
the FATA folks--and the ability to use those funds?
    Yes, Dr. Fair.
    Ms. Fair. Yes, unfortunately, I don't have the numbers with 
me. But one of the things--and it pertains to the FATA issue--
that I have been particularly dismayed by--and I know Dr. Ahmed 
and, I think, Dr. Wilder, have remarked upon this as well--is 
that the aid was never conditional upon encouraging the 
Pakistani government to change the constitutional structure 
that governs FATA.
    And one of the things that strikes me where USAID might be 
more effective is actually helping the Pakistani government 
make that transition. So, for example, while there are civil-
society organizations, the judicial system hasn't been linked 
to the rest of Pakistan, because there is no right of appeal. 
There are no police in FATA. There are these highly 
unprofessional tribal levies. And, of course, the Frontier 
Corps is a paramilitary organization.
    It has always struck me that the more effective way of 
trying to reach FATA has actually been to incentivize the 
Pakistan government to incorporate FATA into the rest of 
Pakistan, as opposed to keeping it separate.
    Mr. Luetkemeyer. Is that where most of the money is going 
now--to the government of this area?
    I mean, does any of the money go to the rest of the 
Pakistani people?
    Ms. Fair. Oh, there is a huge aid program----
    Mr. Luetkemeyer. OK.
    Ms. Fair [continuing]. Apart from----
    Mr. Luetkemeyer. What percentage, then, goes to the 
development of FATAs areas?
    Do you have any idea, just roughly?
    Ms. Fair. There is $750 million that has been going to 
FATA. And that is in addition to an additional security-
assistance program that is supposed to be arming the Frontier 
Corps.
    So relative to the rest of the programming in Pakistan, it 
is actually relatively modest. But you know, it is interesting; 
when you talk to Pakistanis--you know, because USAID can't be 
subtle about its aid objectives in FATA. So Pakistanis have 
this belief that they are largely only operating in FATA. And 
that fuels this additional conspiracy about the securitization 
of aid--that if you weren't in Afghanistan, you wouldn't care 
about FATA.
    So, in other words, ``You don't care about Pakistan. You 
care about FATA because of the insurgency.'' But----
    Mr. Luetkemeyer. So what you are saying, you know, is that 
most of the money goes to other areas of Pakistan, for economic 
growth, health and other things like that. And my question, I 
guess, is: How effective are we?
    And, I mean, we--the FATA--the issue has been that--you 
know, dominating the discussion, here. What about the rest of 
the aid for the rest of the country, and the areas that it is 
supposed to go into, such as economic growth, health, 
governance, humanitarian assistance? Does it go to those areas? 
Is it effective?
    Ms. Fair. Well, they don't know, because they don't do 
those evaluations. And that is what I find so frustrating that 
you say----
    Mr. Luetkemeyer. And when you say ``they don't do those 
evaluations,'' who are you talking about?
    Ms. Fair. Yes--USAID really doesn't evaluate the impact of 
its programs. You know, they will talk about how many schools 
they have built. But, for example, there is no real meaningful 
measure of how the quality of education has been improved. So 
there is this tendency to focus upon outputs, not outcomes.
    And, in fairness to USAID, evaluations are expensive, 
especially when conducted through institutional contractors. 
And at the risk of, you know, projecting self-interest, I think 
USAID should be partnering more with the academic community 
because, A, they have more luxurious timelines. They have a 
more competitive cost structure. And they actually have the 
academic expertise--I am talking about quantitative analysts, 
in particular--to help them isolate the impacts of their 
programming upon outcomes.
    And so the other alternative to think about is actually 
partnering USAID with programs, for example, like what Dr. 
Wilder does, as opposed to relying upon these institutional 
contractors. I have seen institutional contractors grade other 
institutional contractors' homework.
    And when there is a limited corral of these contractors, it 
is pretty easy to tell who has done what analysis. And it is 
just game theory. You know, everyone is basically going to say 
that every program did, more or less, a good job, because they 
don't want to, then, be subjected to a negative critique by 
another institutional contractor for their programming.
    Mr. Luetkemeyer. So what you are saying is there are no 
measurable--there has been no measurement of the outcomes of 
the programs to date, with regards to the other folks here, 
with regards to economic activity, health?
    In other words, there is no--there has been no discussion 
of how many shots have been delivered, how many more doctor 
visits--how many people have been taken to the doctor----
    Ms. Fair. But those are outputs, not outcomes.
    Mr. Luetkemeyer. You know, whether the birth rate has 
increased, or whether the cause of other diseases have gone 
down? None of that has been quantitatively measured?
    Ms. Fair. Well, you can measure outputs. Like, they can say 
how many schools they have built and how many teachers they 
have trained. But they can't talk about outcomes, which is the 
quality, for example, of the education.
    The other problem is that because they don't randomize 
interventions--so, for example, let us--right now, they are 
really focusing on particular districts that are affected by 
insecurity. So since we are putting more money into more 
insecure areas--and this is what Dr. Wilder talked about--we 
are always going to have a causality that more insecurity is 
correlated with more money being spent.
    And it is very difficult to disentangle that because they 
are not putting money into areas that are least secure. So, in 
other words, if they were to randomize their intervention, they 
could actually isolate the effect of the intervention. But for 
political reasons, and for mission-driven reasons, they don't 
feel that they have the luxury to do that. But, yet, it is 
absolutely essential to generally determining the impact of an 
intervention.
    Mr. Luetkemeyer. OK. Thank you. I see my time is up.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you.
    Mr. Duncan, you are recognized for 5 minutes.
    Mr. Duncan. Well, thank you very much, Mr. Chairman.
    I don't really have any questions, but I do have some 
comments. I want to read something from a Washington Post story 
of October 8th. In this story, it said, ``The Obama 
administration's strategy for bolstering Pakistan's civilian 
government was shaken Wednesday when political opposition and 
military leaders there sharply criticized a new U.S. assistance 
plan as interfering with the country's sovereignty. Although 
President Obama has praised the $7.5 billion 5-year aid program 
approved by Congress last week, Pakistani officials have 
objected to provisions that require U.S. monitoring of this 
package.'' That was in October.
    Then, on November 1st, when Secretary Clinton was visiting 
there, the Los Angeles Times had this in one of their stories: 
``At a televised town-hall meeting in Islamabad, the capital, 
on Friday, a woman in a mostly female audience characterized 
U.S. drone-missile strikes on suspected terrorist targets in 
Northwestern Pakistan as de facto acts of terrorism. A day 
earlier, in Lahore, a college student asked Clinton why every 
student who visits the United States is viewed as a terrorist.
    ``The opinions Clinton heard weren't the strident voices of 
radical clerics or politicians with anti-U.S. agendas. Some of 
the most biting criticisms came from well-mannered university 
students and respected seasoned journalists, a reflection of 
the breadth of dissatisfaction Pakistanis have with U.S. policy 
toward their country.''
    Then, December 3rd, in the Washington Post: ``President 
Obama's new strategy for combating Islamist insurgents in 
Afghanistan fell on skeptical ears Wednesday in next-door 
Pakistan--a much larger nuclear-armed state--that Obama said 
was at the core of the plan, and had even more at stake than 
Afghanistan.''
    What I am getting at is this: This weekend, I participated 
with 14 members from the House--and there were 26 members from 
various European parliaments--in New York City, at what is 
called the Transatlantic Legislative Dialogue.
    The chairman of the European delegation, actually, at one 
point, criticized the United States--and all these people were 
very nice people--but he criticized the United States for not 
spending enough on foreign aid.
    And, for many years, I have heard people say that, ``Well, 
foreign aid is only a little over 1 percent of our entire 
budget.'' Yet, they don't stop to think that about half of what 
the Department of Defense does now is just pure foreign aid. We 
have almost turned the Department of Defense into the 
Department of Foreign Aid, particularly in Iraq and 
Afghanistan.
    We are spending money to do things in other countries 
through every department and agency of the Federal Government. 
That is foreign aid that we don't get credit for. We are 
actually spending hundreds of billions in other countries, 
and--or have spent hundreds of billions in, really, pure 
foreign aid, over the last several years.
    And I asked a few days ago for the latest figure from the 
Congressional Research Service on how much aid we had given to 
Pakistan over the last few years, since 2003. This wouldn't 
even count all the money that has been given through all these 
other departments and agencies. But people also don't realize 
that, in addition to the traditional foreign-aid program, we 
come up with these other bills, like the $7.5 billion one that 
we just passed. And, before that, since 2003, we had given 
$15.439 billion--or $15.5 billion in aid, to Pakistan.
    Now, we have passed another $7.5 billion. This is money 
that we can't afford. We are over $12 trillion in debt. We have 
almost $60 trillion in unfunded future pension liabilities.
    And, then, we come along, and we give all this money to 
Pakistan. And, then, what do they do? They criticize us. It 
seems to me that it takes an extreme amount of gall for a 
country to accept $15.5 billion in aid from us, and, now, $7.5 
billion coming on top of that, in addition to all the other 
things, and, then, come out with just one anti-American 
statement after another.
    It just really bothers me. And I would say to the 
leadership in Pakistan: If they don't like what we are doing, 
please turn down this money. The problem is all these 
countries--Iraq, Afghanistan, Pakistan, all of them--they all 
want our money. It is about money and power. And it is not 
doing us any good at all. It just seems to be increasing anti-
American feelings.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Duncan.
    Mr. Fortenberry, you are recognized for 5 minutes.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    And thank you to you all for joining us today. I am sorry I 
didn't have the benefit of your earlier testimony. Some of what 
I may ask you may appear redundant, given what you talked about 
earlier, in my cursory review of some of your written comments.
    But it seems to me that the outcome here is that this is a 
big mess, if I could summarize it succinctly.
    Dr. Wilder, I picked up on a statistic in your written 
testimony that, basically, 75 percent of the aid is going to 2 
percent of the population. Is that a key finding? Is that 
correct?
    Mr. Wilder. No. I think that was the--$750 million of U.S. 
assistance is going to the federally administered tribal areas, 
FATA, which is--make up 2 percent of the population. But there 
is a much larger USAID program as well, which is also going to 
other parts of the country.
    Mr. Fortenberry. OK. It is my understanding the total 
contribution is $1.5 billion.
    Mr. Wilder. With the new Kerry-Lugar Bill, that is the 
proposal--is $1.5 billion per year, over a 5-year period. That 
has not been appropriated yet.
    Mr. Fortenberry. Yes, so framing it simply, then, half of 
the money is going to a very narrow--narrowly targeted area. 
And that is correct. And you have made the suggestion that the 
linkages between poverty mitigation and social services are not 
achieving--the hearts-and-minds strategy there is not achieving 
security outcomes that you would hope to be an intended 
consequence of capacity-building.
    I am very much for cups-of-tea strategy, where you 
relationship-build and establish communications, establish 
trust--partnerships that can lead, then, to mutual 
understanding and long-term continuity and capacity-building.
    But given some of the complexities as to how this is 
targeted, as to how it is institutionalized--it seems to me you 
are raising very critical points that we may have to rethink 
some of this, with the intended outcome of strengthening the 
partnership and alliance for the long-term security situation 
of the region, not to mention the social-justice outcomes we 
want to see for impoverished people around the world.
    Is that a pretty correct summary of what I have gleaned 
this for?
    Mr. Wilder. Yes. The point I was trying to make is that 
there is evidence that our development aid actually can have 
very positive development outcomes. I think where we don't have 
the evidence is the positive security outcomes. And that is 
where I am arguing we probably need, in some of these contexts, 
to de-link those two, and value development as a good, in and 
of itself, even if it doesn't end up making people like us.
    Because FATA--the needs are tremendous. Although, I would 
like to point out, it is actually not the poorest region in 
Pakistan. There is things that can be done there. I personally, 
though, don't think that we can spend $750 million effectively 
in a 5-year timeframe in a highly insecure environment like 
FATA.
    So I think, then, you can end up fueling corruption, and 
some of your aid can end up having perverse and negative 
consequences. It is not to say we shouldn't be doing anything 
in FATA. It is certainly not that we shouldn't be doing--trying 
to do lots in Pakistan. But we should be very aware that where 
our aid--development is good for achieving--promoting 
development objectives. There is not evidence that it is really 
good for promoting our security objectives in Pakistan.
    Mr. Fortenberry. All right. Yes, maybe I misstated that 
earlier. Maybe I said 75 percent of our aid is going to 2 
percent. I meant $750 million of the aid is going to the 2 
percent of it.
    Mr. Wilder. Right.
    Mr. Fortenberry. Let us unpack this a little bit further--
the other bilateral relationships that Pakistan enjoys, and, 
then, the collective or cumulative effect of the aid that is 
pouring in there to either further complicate your findings, 
assuming their objectives are the same in terms of long-term 
security stabilization, as well as social-justice outcomes--can 
you--can any of you give me any insight into the other donor 
countries and the approaches there?
    And I want to say this as well--and this dovetails with the 
question--it seems to me there is this raging dualism in 
Pakistan with regard to the United States: ``We want the money. 
We like your money. But we don't want to be your friend--
maybe--except behind closed doors.''
    And so is that a distinction in terms of other bilateral 
relationships that the country enjoys?
    Yes, Dr. Fair.
    Ms. Fair. Well, there are a couple of programs I am 
familiar with.
    DFID has an interesting approach. So DFID does the same 
kinds of programs that we do. I believe there is coordination 
with DFID, for example, taking the lead in Baluchistan. I am 
sorry--the British aid organization, DFID.
    But they are also very interested in doing what I had 
suggested in my written testimony, which is supporting their 
supply driven efforts. So, for example, whatever intervention 
they are trying to do, they are trying to support it with a 
civil-society outreach to create demand.
    So the example I gave was corruption. So it is one thing to 
try to clean up a particular bureaucracy or a particular 
service delivery. But unless you also engage in civil society 
to educate people that, ``Actually, while it may be efficient 
to pay a bribe to get a phone line,'' that, ``in fact, it makes 
everyone's lives more difficult.'' They are really interested 
in trying to build this demand for change, even while they try 
to supply it.
    The Canadian agency CIDA is much smaller in profile. They 
work primarily through NGO's. And they seem to have a very 
different aid-delivery model. So one thing that USAID might 
want to do is look at these different organizations.
    The Japanese are also heavy investors. They have also 
heavily securitized their aid. And when I have seen analysis of 
the Japanese aid program, there are very similar critiques to 
those of USAID.
    Now, Pakistan has a lot of other partners, which they tend 
to use to bribe us. So, ``If you don't do XYZ for us, we will 
go to China.'' Of course, they have a very important 
relationship with Saudi Arabia.
    And it is pretty hard to discern--a lot of money through--
we can't say that they get money from Saudi Arabia per se. They 
get money from remittances; they get money from religious 
organizations. So there is actually quite a bit of money going 
in.
    You know, I have actually--one of the things that is so 
frustrating in dealing with the Pakistanis is that they tend to 
view our aid as an entitlement. So when we cut the aid back, it 
is viewed as a penalty. And because they view it as an 
entitlement, this issue of sovereignty--you know, ``How dare 
you? You say that we are your important ally, but now you want 
to actually subject the way we deal with your money to 
scrutiny.''
    And this has been a very longstanding problem. And it is 
pervasive not only in USAID. It is pervasive--we saw this with 
the coalition support funds--virtually any program that we have 
with the Pakistanis, it is subjected to these problems.
    Mr. Fortenberry. Mr. Chairman, if you could indulge me just 
one more moment--is this a kind of a purposeful dualism, in 
order to, again--because of the internal political dynamics--
create a position of authority and power and legitimacy in the 
country, versus, again, behind closed doors needing--actually 
needing the aid for long-term governmental stability 
objectives?
    Ms. Fair. I actually do believe that to be the case. A 
really good example of that is the drones. The reality is the 
drones do not kill that many civilians. I have this from very 
well-placed Pakistani sources. Their administration knows this.
    The drones are run from Pakistani territory. It is done 
with their permission. We are not, obviously, running drone 
operations in a rogue way.
    And, in fact, in Pakistan, the drone discourse has changed. 
During Swat, when 4 million people were being displaced--if you 
read some of the op-eds, they were saying, ``Why don't we have 
drones, because drones don't displace millions of people?''
    But the civilian government, rather than taking advantage 
of this, has continued to whip up anti-American sentiment over 
drones. Yet, I assure you, if we stop the drone attacks, their 
security would be worse, not better, in my opinion.
    So I think they do try to create this wedge, because it, 
then, gives them an out to do less when we are asking them to 
do more. And I particularly see this on the security side of 
things. They are constantly asking for more. They are 
constantly talking about their sacrifices, which is reasonably 
fair. But I think that we have not struck a good bargain.
    You know, on the main--you know, they have been marginally 
satisfiers. And this is true across the board, in many of our 
engagements with them.
    Mr. Fortenberry. Thank you.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you.
    I want to give Dr. Ahmed a chance to talk about something 
here. I think it would be helpful or--hopefully, helpful to all 
of us.
    But when we were doing the so-called Kerry-Lugar-Berman 
Bill, a number of us were adamant that there be conditions in 
that bill. There was some sensitivity to try to give the 
civilian government more authority, because we wanted them to 
extend their writ throughout the entire country in a non-
discriminatory way, and sort of gain some ability to deal with 
the budget of the military, and to take some control over that, 
as most civil democracies would have. So the conditions were 
put on the military money, all right?
    And, basically, one of the conditions that must be met is 
that they do extend their writ over the entire country if they 
are going to continue to get the military assistance.
    And, Dr. Ahmed, I would like you to talk a little bit about 
the relationship between the military establishment and the 
civilian government. Because it has been my distinct view as--
and I think you well know, and others--is that the recalcitrant 
here--be all sorts of corruption issues and incompetence issues 
on the civilian side. But we have some very serious issues on 
the military side about just how much they want to impact all 
the policy decisions, as well as the strategic and implementing 
decisions, and how much control they have over it. And the 
push-back that you get, and how they utilize this sort of 
narrative that, ``Oh, you can't put conditions on us. You are 
interfering with our sovereignty. You are treating us like a 
step-child,'' and all of that--to get their way of not 
relinquishing authority that--in most democracies would be 
shared, or primarily come from the civilian government.
    Would you speak to that?
    Ms. Ahmed. Thank you, Mr. Chairman.
    You know, in all of the Q&A, the one thing that seems to 
have been ignored so far is that this is a very young 
democratic transition. After almost a decade of military rule, 
you have an elected government. And civilians might not be 
the--might not be the most efficient of factors. But let us not 
forget they are also in government, after a very long time.
    When we say ``Pakistanis,'' I think we also need to make a 
very clear distinction here: Who are we talking about? Are we 
talking about the elected civilian representatives, the 
Pakistani people, or the military establishment?
    On the Enhanced Partnership with Pakistan Bill--and I know 
that this has been taken--taken a number of folks on the Hill 
by surprise--``Why is it that there was such an outcry on the 
military conditionalities and, actually, certification 
requirements placed by Congress?''
    It was a push-back. It should have been expected. You have 
a military that is not either interested in sharing power, or 
in seeing the United States actually engage with the civil, as 
opposed to only the military, as an actor.
    One of the reasons why you have an anti-American perception 
amongst the Pakistani people is there was no engagement with 
the Pakistani people for almost a decade. Why, then, is there, 
again, surprise here, that there is neither any knowledge of, 
or any understanding, that the United States is a partner? 
Because they--the Pakistani people, Pakistani civil society--
have only seen U.S. Government partnered with the Pakistani 
military.
    Here is, now, an opportunity, with a young democratic 
transition, to change that equation, and to truly win hearts 
and minds in the real sense of the word. And I do think 
Secretary Clinton's visit to Pakistan--yes, she faced some very 
difficult questioning.
    And it was good because she, I think, began to understand 
that a public outreach needed to have been done on an emergency 
basis. And I think there will be a focus now in reaching out to 
the Pakistani people, to an elected government, to elected 
institutions, as opposed to only partnering in what was the war 
on terror with the Pakistani military.
    The conditionalities issue, again--you know, I personally 
believe that there was not a sufficient attempt made in terms 
of public outreach to inform the Pakistani public and opinion-
makers that there were no conditionalities on economic 
assistance.
    Mr. Tierney. Can I just interject?
    First of all, I would contest that a little bit, I think, 
because I took several trips there and had a number of 
conversations with those people directly. Any upset nature on 
that was perfectly willful on people not wanting to at that 
time.
    But there is great control of the military--at least 
influence of the military--on the media. And that was there. 
The media almost exclusively sang the song of the military, and 
that drove public opinion considerably on that whole notion as 
well. That was a large part of the problem.
    But here, we still have a problem with--and I listened to 
Mr. Duncan's comments--and they are always enlightening. You 
know, he has zeroed in on some of the issues here. But people 
in this country see a balance right now between what their own 
needs are in terms of our economy--and they do see foreign aid 
as something that, in one sense, they want to do, and they 
understand the implications of that--but almost a need to 
justify it.
    And the easiest or most available way to justify it 
sometimes is the security aspect of it. So I think that is 
where it gets tied in. And we need to break that out and 
rationalize it better.
    The whole idea of the--USAID's capacity, Dr. Fair, is this: 
Look, they don't spend a lot of their money on monitoring and 
evaluation. They spend a very small portion of their budget, 
unfortunately, vis-a-vis other agencies. And I think you would 
agree they have to ramp them up. Am I correct?
    And so we need to do that. But as long as they don't have 
the capacity--and we talked about education programs where, as 
you said, they could tell the number of teachers that were in a 
classroom. But they had four people on their staff for the 
entire country of Pakistan, to go around and evaluate the 
quality of the program--whether or not the teachers are 
actually teaching anything worth learning, or even whether they 
were showing up every day.
    Tell us a little bit about your remarks that you made in 
your written testimony about education, and whether we ought 
not just think about pulling back on education and redirecting 
our resources a little differently there. And I think that 
would be helpful for us.
    Ms. Fair. Well, I have sort of become a fatalist on this 
education issue. One, since 9-11, there was so much focus on 
this madrassa stuff. Now, to be very clear, full-time madrassa 
utilization is actually quite rare in Pakistan. There have been 
a number of very interesting estimates that they aren't 
supported by robust estimates, using a variety of survey 
instruments.
    And this has caused--well, in the madrassas, for example, 
that are involved in terrorism--I view them as a law-
enforcement and intelligence problem. And they are well known 
to Pakistan's intelligence agency, because they have been using 
them to create militants for quite some time.
    I have been, in principle, opposed to the United States 
trying to get into the madrassa reform. It also undercuts those 
people who are important that are seeking madrassa reform on 
their own, because it kind of makes them look like American, 
you know, lackeys.
    On the public-education sector, which is a provincial 
subject, you have--because of the capacity issue, trying to 
shove large sums of money down a small pipe results in this 
outcome-driven stuff, you know--``How many teachers can we 
churn out?'' There is no impact assessment--``Was there any 
impact on the training?'' It is just, ``How many teachers have 
we trained?''
    That is why I focus--I find a more interesting approach is 
an information-driven approach. The World Bank has done some 
really interesting stuff reporting teacher absenteeism, 
reporting student performance, school performance. And when 
there are cost-neutral ways, parents actually shift as a result 
of this information.
    I have also become a fan of doing what we do best. And that 
is encouraging competition. The World Bank found that when 
there are private schools in the mix, and when there is 
information about school performance, it compels the public 
sector to also improve.
    So I think we should probably be looking at doing what we 
do best. And that is improving quality through competition. 
Now, this does not mean that we should not be working with the 
ministries to improve their effectiveness to deliver services. 
But simply relying upon those, given the pervasive problems--
and, quite frankly, they don't want us interfering.
    As you said yourself, they have resisted all sorts of 
monitoring. And I think there are a number of reasons for it.
    I am also somewhat skeptical of relying upon elected 
officials as the silver bullet, in part because of Pakistan's 
young democratic transition, but also, in larger measure, due 
to the way legislators are oriented vis-a-vis their 
constituents. They don't deliver policy. They deliver 
patronage.
    So when you look at local governance initiatives, for 
example, we supported that; although, it was really to support 
Musharraf, because he wanted local governance because it was a 
new way of patronage to create a series of supporters for his 
initiatives. But the execution of aid, from what I can tell 
there--it really becomes--contracts are given out to friends of 
the local administrators.
    Again, this kind of goes back to--we really have to try a 
variety of different mechanisms. All of the available 
mechanisms have a number of various serious problems. And I 
suspect each of those mechanisms have their own particular 
monitoring requirements that would actually help them to be 
effective.
    But the capacity at USAID--if you don't have the capacity, 
it is simply irresponsible to shove all this money down this 
system, because of the corruption. I have heard people complain 
about the generosity of our aid because of the corruption. 
Whether I go to some shopkeeper in Anarkali Bazaar in Lahore, 
or a newspaper editor, they are all saying the same thing: 
``When you give money on this scale to these ministries, you 
make things worse for us, not better.''
    Mr. Flake. Let us follow on that talk of corruption for a 
bit.
    In Afghanistan, we have seen a couple of types of 
corruption on a large scale--both individual Governors or 
provincial authorities pocketing money that is given, or NGO's 
and others having to pay people to get a load of freight from 
one city to another.
    What type of corruption are we more likely to see in FATA, 
or elsewhere in Pakistan? Is it the former or the latter, or 
all kinds? Or what should we be more concerned about, given the 
pace at which this aid is being distributed?
    Dr. Wilder.
    Mr. Wilder. I think in any country in the world, if you 
give vast amounts of money with little oversight, you are going 
to end up fueling corruption. And I think that is where I think 
we need to be committed for the long term, in terms of our 
development programs, to building capacity so that, over time, 
we can spend more money. But we need to link our funding levels 
not to the need, which is great, but to the capacity to spend 
money accountably and effectively. And I think that is what we 
are not seeing in the Afghanistan context and, I fear, is going 
to be the problem in Pakistan.
    I am a firm believer that we need a long-term commitment in 
our aid program to Pakistan. But I think we will be fueling 
corruption if we try to give too much money too quickly, if it 
is not linked to local capacities.
    And I think, there, it will be across the board. In terms 
of implementation, who should be doing the implementing? The 
chairman raised that in the opening remarks. I think we 
should--it is not an either-or question.
    We need to be working with NGO's. We need to be working 
with the government. We need to be looking at local actors and 
international actors, because capacity is limited. We need all 
of the capacity that we have. But, again, all of those will be 
problematic if you try to push too much money through the 
system.
    And I think that is what we are seeing. I mean, the idea 
that we should do aid--only through local actors--I mean, I 
think that is a problem. In Afghanistan, we are seeing that 
many of the local actors don't have a good face. I mean, they 
are all linked to the key ministers and relatives. And it is 
creating, again, I think, very perverse negative consequences.
    I also wanted to just touch on one thing related to 
Congressman Fortenberry's dualism point in terms of how 
different other donors handle their aid programs. I think most 
of the European donors do tend to securitize their aid to a 
lesser degree than the United States. There is more distinction 
between their aid programs, which have development budgets, and 
then there are more political resources.
    And I think that is, in a way, where I think we need to go 
in the United States, precisely for the reason that it is 
easier to get money if you justify that it is going to have 
security benefits. It is also, then, very easy--and I think we 
heard that from Congressman Duncan--to de-legitimize foreign 
aid when it ends up not making people like us. And if they 
don't--if our money isn't going to make them like us, let us, 
then, stop giving them money.
    And I think that is a danger I see with our current 
securitized aid; whereas, in Pakistan, if we could distinguish 
our development objectives, we could, then, be very happy that 
our health programs have had a significant impact in Pakistan 
over decades in terms of improved health indicators, reductions 
in maternal-infant mortality rates.
    USAID, in the past, contributed to a very effective 
development of a health-management information system, which 
has been important; like support to the Lady Health Worker 
programs.
    We need to be cautious not to assume that all the USAID 
programs have had no impact. There have been positive 
development impacts over time. But I think if we are looking 
for them to like us as a result of our aid program, then we are 
going to be disappointed. And I fear that is going to, then, 
over time, reduce U.S. public support for our foreign aid 
programs.
    So, again, I would argue for a greater dualism in our 
foreign aid funding to Pakistan--between our development 
objectives and our more political and security objectives.
    And, last, in terms of local perceptions of conditionality, 
I don't think you will have any Pakistani, again, objecting to 
conditionalities on how our aid money can be spent in a more 
transparent and less corrupt way, so that we demand 
accountability for how that money is spent.
    I think the problems are in the conditionalities in the 
political realm, relating to the civil-military relations, the 
nuclear program--various programs like that. That is what 
generates a lot of unhappiness in Pakistan. Thanks.
    Mr. Flake. In my short remaining time, just--we are going 
to be questioning administration witnesses coming up here 
soon--hopefully, early next year.
    What is the one question--the most important question--we 
need to ask in terms of their capacity to monitor this aid? I 
mean, is it ramping up significantly the personnel, or the 
areas in which they do oversight among themselves, or what? 
What is the most important thing for us to ask, and to have 
them answer?
    Dr. Fair.
    Ms. Fair. Well, you have kind of said it in your question: 
``Do they have the capacity to execute this money 
responsibly?''
    This civilian surge--I mean I am wondering where these 
civilians are coming from. Yes, exactly. Many of them have no 
experience in South Asia. They are there for short-term 
contracts. So even if they plus-up the numbers, this does not 
in any way, shape, or form, make me confident that they are 
going to be able to execute this funding program responsibly.
    Mr. Flake. Dr. Wilder, did you have anything to add to 
that? The same----
    Mr. Wilder. No. I just share the same concerns, again, that 
we need that long-term commitment to support for Pakistan, but 
linked to our capacity.
    And I think if the security situation continues to 
deteriorate in Pakistan--and yesterday's news was not, you 
know, positive in that regard--the capacity of USAID staff to 
actually do monitoring and oversight is going to be limited.
    So just more numbers of people sitting in the embassy 
compound, with very severe constraints on their mobility is not 
necessarily, I think, going to increase the capacity. I mean, I 
think--oh, in general, globally, I would argue we need to be 
investing a lot more in rebuilding USAID's capacity to program 
and implement projects so that they don't have to subcontract 
it all out.
    But right now, in the short term, in Pakistan, I think 
that--and similarly in Afghanistan--civilian surges--there are 
big questions about what all these civilians are going to be 
able to do, in terms of what capacities they bring to the 
table. But, also, even those who would be effective are going 
to be so constrained in that insecure environment that, you 
know, I don't see that, in itself, is going to increase 
capacity sufficient to monitor the sheer volume of money we are 
talking about trying to spend within a fairly limited 5-year 
timeframe in Pakistan.
    Mr. Flake. Thank you. Thank you----
    Mr. Tierney. No. No, thank you.
    Yes, we have the capacity problem. Excuse me a second.
    Oh, you are back. Excuse me.
    Mr. Fortenberry--5 minutes.
    Doing the disappearing act--the Houdini thing again, is it?
    Mr. Fortenberry. It is life as a public official.
    Let me go back to some of my earlier comments. They were 
not intended--and I don't think they came across this way, but 
let me clarify--to disparage USAID outreach for capacity-
building.
    But I think as you further discuss the points--your 
comments were very germane, Dr. Ahmed, in that this is a 
fledgling democracy. We work off of certain operational 
assumptions--premises--that there is going to be capacity to 
absorb this type of aid quickly. And whenever you are not 
dealing with well-defined institutions--institutions that 
aren't necessarily fully reflective of the principles of self-
determination and, therefore, are not going to be more 
transparent, and have power consolidated into the hands of 
fewer institutions, fewer people who may be in a situation to 
manipulate--your outcomes are going to be messy and difficult.
    The benefit, though, of this hearing is actually staring 
that in the face under the very real constraints, though, of 
the geopolitical urgency in the area, and the new evolving U.S. 
strategy of security, capacity and stability, based upon a 
wedding of military operations, as well as social outreach and 
institutional civil-society-building.
    We have had other hearings when we have just directly 
talked about whether or not the military itself, as they had to 
learn quickly how to do in Iraq, is better positioned, in some 
ways, to deliver the types of social-service inputs for 
capacity-building in a very insecure situation, versus a 
civilian component, which may not have the ability to deal with 
the security situation adequately.
    So we are in a very constrained situation. I think that is 
the point. The institutions simply aren't sufficiently 
developed. We have a policy based upon the nature of our 
government, where we have to do things quickly based on 
changing policy dynamics but the urgency of the security 
situation, as well, is compelling us to make this move, as 
difficult as it is.
    And I understand the intention that--what you are talking 
about--to separate the outcome measures of how you might be 
implementing a health-care clinic and what the outcome of that 
is, versus did it stabilize the institutional capacities for, 
again, governance and security for the people over the long 
term.
    We just don't have strategic long-term thinking. Everybody 
recognizes that. But it is very hard to have that with the 
nature of our political system; with the nature of the, again, 
geopolitical movements in the arena; and with nuclear weapons 
sitting over the horizon, potentially falling into hands of 
people with very twisted ideologies, who want to do us grave 
harm.
    That might be beyond the realm of what your expertise is, 
given the very good comments you had in terms of making our 
efforts more effective. But that is the constraints that we are 
operating under.
    And I guess your recommendations, short of--I heard what 
you said--``separating the objectives of security and social-
capacity building, and measuring those distinctly.''
    I think, if we had time, the investment in social-justice 
outcomes does pay security dividends. I think it is a matter of 
time. The truncated allocation, though, of time, compresses 
this into an artificial period without the capacities to absorb 
it quickly, without the experiential level, perhaps, on our 
side, as you were just suggesting.
    The last thing we need is people holed up in an embassy, 
who are spending a lot of money, who can't get out and do good 
things, or are doing good things, empowering the wrong people, 
that actually undermine the stability of the society over the 
long term.
    So that is a long editorial comment on just how, I think, 
complex this is. And if you want to talk about any other 
recommendations--given, again, the constraints of time and the 
nature of the political system there, as well as ours--that we 
improve the chances of meeting the dual goals of social 
justice, but also security.
    Yes?
    Ms. Fair. Mostly, my work is on security issues. So 
counterinsurgency--and it is very--I understand what you are 
saying. But when there is no data that justifies that what we 
are doing has any impact, and it seems to be having a negative 
impact upon our strategic relationship with the country--I 
think that justifies calming down this faux timeline of 
urgency.
    Let me give you a really good example of what is going on 
in Pakistan. I don't like to call it counterinsurgency, because 
what they are doing is not population-centric COIN. It is 
actually low-intensity conflict, which is resulting in massive 
damage and huge displacements of persons.
    But even if they can clear an area, they have traditionally 
had problems with holding. And this is because, for example, 
they have inadequate police that are able to do this holding. 
And in counterinsurgency, that is exactly the agency that 
should be doing holding.
    I know that Dr. Ahmed has done a lot of work on police 
reform in Pakistan. We would like to bring DynCorp in there, 
and churn out police in large numbers, over a week. That is not 
how you make police. So if you want to do clear, hold, and 
build, you can't get to the ``build'' part if there is no 
security.
    The Pakistanis have not shared with us their operational 
plans. After they conduct an operation----
    Mr. Fortenberry. Do they have them?
    Ms. Fair. They don't, for example, in Swat.
    If you are going to think about ``build,'' you need to 
have, as a part of your planning, the civilian component--for 
example, the relief to the IDPs. If they had coordinated with 
us their operational plans, we could have helped them put into 
place the civilian relief.
    Now, the army says that they are holding, and they are 
waiting for the ``inept civilians'' to come in. That is their 
narrative. It is the ``inept civilians.'' Of course, the 
civilians are inept because they have been hollowed out for 10 
years. But if they had actually been genuine partners with us, 
we could have helped them think through what would be the 
civilian requirement.
    So another concern that I have, other than this fake 
urgency--and I say ``fake urgency'' because we imposed this 
upon ourselves, when, in fact, I don't believe we can execute 
this aid program effectively in the time constraints and in the 
quantity--with the quality, and given the security 
environment--this is--just seems an impossible task.
    But we certainly can't do it without Pakistani partners. 
And when I look at different sectors--another good example that 
has immediate security implications is justice sector. One of 
the things that the Taliban do well is actually justice 
provision.
    They go around. They can resolve disputes expeditiously--
not complicated things--family disputes, land disputes. There 
is no recidivism. Justice is really key. Yet, the Asian 
Development Bank--and I believe Dr. Wilder is more 
knowledgeable about this than I am--has spent millions of 
dollars doing justice-sector reform. What they want is the 
computerized case management. They want the courthouses to be 
redone. But what they don't want is actual human-capital 
development.
    So I will make the other argument that it is not only the 
limitations of USAID numbers--their security environment--but 
it is also the political system in which our partners are 
embedded. And this comes to a much larger issue, which I think 
Dr. Wilder knows a lot more about than I do--and that is civil 
service reform.
    So you keep rolling back the things that have to happen 
before we can effectively spend these sums of money 
effectively, and you realize there is no substitute to anything 
but a long-term commitment to capacity-building.
    Mr. Tierney. Thank you.
    The point that was made earlier about USAID, in terms of 
the numbers of personnel, the capacity, is well taken. And we 
have spent some time.
    I think as disturbing to those of us that were visiting 
there just a little bit ago was they have those 6-month 
rotations--6-month rotations. If you are a USAID worker, how 
much oversight can you do for a project that is 2, 3, or 5 
years in a contract length? So I think that is just another 
impediment--looking at the whole structure of how we--how we do 
staff-up USAID, and what their appointments are on that basis.
    Do we run any risk--let me ask you this--in terms of 
security, if we were to slow down the distribution of aid in 
the Northwest Frontier Province and in FATA, until we had in 
place a system and a mechanism for compiling the data that 
would tell us where best to allocate the resources, to 
prioritizing them, putting together an implementation plan, 
putting together an effective monitoring plan, an evaluation 
plan, and moving at a much slower pace than is anticipated?
    Sometimes when we talk about this kind of insurgency, ``We 
are going to do it all at once. We are going to go in and 
secure, hold, build the world again, and move on.'' What 
security risk, if any, do we run in slowing things down and 
doing it as I have described?
    Doctor.
    Ms. Ahmed. One of the things we have to recognize--and I 
agree with you, Congressman, is that these are staff choices--
staff choices for regional security and for global security--
emerging out of a very ugly conflict. So I don't think we have 
the luxury of time, frankly speaking, to sit around and look at 
the data--assess it, look at the mechanisms, do all these 
studies, and then decide what kinds of interventions are 
possible at all.
    Let me also say this: Afghanistan and Pakistan are two 
different countries. There is a different level of capacity in 
Pakistan from that of Afghanistan.
    What you need in Afghanistan is to build the institutions. 
What you need in Pakistan is to reform the institutions. And, 
there, I think you can actually use aid quite effectively to 
ensure that you are building the capacity of the institutions 
in terms of reform. There is a police force. There is a 
judiciary. There is a civil service. There are political 
parties. There is a legislature. Nothing has to be created by 
the United States.
    But finding the partners that you will need in the 
meantime, and building the capacity, quite obviously, is a 
multi-year endeavor, which is why I think this bill is a good 
bill--because it is a multi-year investment in Pakistan.
    But at the same time, we have to look at different types of 
tasks that have to be undertaken. The IDPs--the internally 
displaced people--do we wait another few years before we decide 
what are their needs, and how do we access them, and how do we 
actually make sure that there is a semblance of stability that 
returns to what is, actually, a fairly large part of Pakistan--
not just in FATA, but also in Malakand Division.
    Should we be working right now with the civil 
administration, the ministries and the elected representatives? 
I beg to differ. You know, these are not just patron-client 
relationships. These are elected representatives. Let us give 
them their due here. They do know their constituents. They meet 
their constituents.
    We can use all the channels that we have right now to 
assess, first of all, the urgent needs, and the urgent 
programming that needs to be done, and then the middle--the 
medium-term and long-term.
    Let me also say this: I agree with Dr. Wilder. I think we 
are forgetting one thing. There have been long-term programs 
that USAID has run in Pakistan in the fields of health and 
education and infrastructure-building. But what we have right 
now is a crisis. And we have to respond to that as well as talk 
in terms of what we should be looking at in terms of a 
partnership.
    Mr. Tierney. So I understand that you have a sort of a 
mixed view. There are things that need to be done right now, 
and things that can wait for a more nuanced and planned aspect. 
But if I could press you just a little bit--what security risks 
would be confronted if, in fact, we did just that--we just took 
care of some immediate needs--the crises aspect, and the 
humanitarian aspect--and, then, had a more thoughtful approach 
in the long run, instead of just putting all the money out 
there right now?
    Ms. Ahmed. I do think that if the programming is actually 
divided into the quick-impact--humanitarian needs, development-
needs based projects--to the medium-term projects, with a 
certain degree of consultation which isn't there, and which--
frankly speaking, there is another factor we should be looking 
at, which, again, we neglected thus far in this discussion--is 
on the survivability of the democratic transition, because if 
this political order disintegrates, we are not back to square 
one.
    Mr. Tierney. Thank you.
    Dr. Wilder.
    Mr. Wilder. Yes, I also think the situation is urgent and 
deteriorating. My only question is whether money is going to 
reverse that if it is spent ineffectively. And I think that is 
where the real focus needs to be: How do we spend the money 
accountably and effectively? Then, I think there can be 
positive benefits from it.
    And I think that is where, you know, throwing money at the 
problem in short timeframes is going to exacerbate matters. And 
I think that is what we are seeing in the Afghanistan context.
    I absolutely agree with Dr. Ahmed's point that Pakistan and 
Afghanistan are very different. And I think the issue of the 
civil service is a critical difference there, where you do have 
a history of an inherited institution which was very strong. 
And it has been weakened over time, overly politicized.
    I included this in my written remarks, but I didn't really 
have time to comment on it today--but just the importance of 
prioritizing civil service reform. And I actually think that 
this is an area of opportunity where the United States can 
help. It is an area where the U.S. Government has tended not to 
take a lead role, and left it up to donors like the British and 
the World Bank.
    I think it is maybe not a comparative advantage where the 
United States has to lead on it, but certainly to support 
multilateral efforts for a long-term effort to strengthen the 
civil service and public administration reform, in general, in 
Pakistan.
    In the past, civil service--the problems in civil service 
reform are not technical ones. They are political ones. The 
main actors who need to push the reform have a vested interest 
in maintaining the status quo, which is working quite well.
    But the push for reform in the past has come at times when 
Pakistan has been in crisis financially. IMF conditionalities 
and the consequences are often viewed in terms of downsizing, 
and negatively.
    I think that now that there are resources, there is an 
opportunity to have a politically smart strategy of 
incentivizing some of the critically important reforms that 
need to take place. I would put this forward as one concrete 
way where I think the United States could engage and support a 
multilateral initiative to push civil service reform in 
Pakistan.
    A more general point is, I think when you are the lead 
donor, and have lots of money to spend quickly, there is also a 
tendency to try to do it alone. I think this is an area where 
the United States is not always very good in working with the 
other multilateral and bilateral donors in Pakistan. And I 
would urge that as a concrete recommendation--that our aid 
effort there try to work more closely with the multilateral and 
bilateral partners.
    And I think, in that--that is one way of trying to ensure 
that it will be more effective. Thank you.
    Jeff, you have any more questions?
    Mr. Tierney. If there are not, let me just close with one 
question--if you will indulge me for a second--so I am hearing 
very clearly that we need to take immediate care of the 
humanitarian urgencies and crises. And I clearly understand 
that we also need to--with respect to the rest of the moneys--
not be so anxious to just put it out there somewhere, but to 
get together a plan of how we are going to engage local people 
and really get their cooperation and input--have them take some 
responsibility and accountability for it, and develop your plan 
for implementation, oversight, and all that, which is good.
    I don't hear anybody saying there is going to be negative 
security implications if we take that path. Am I correct?
    You seem to think there will be negative security in 
place--no? OK.
    So my last question to each of you is: Can you give me 
examples of the types of incentives that could be used to 
facilitate the civilian government moving forward on reform, 
and to the extent necessary--of course, having the military not 
impede that--what types of incentives might be put in place to 
make that happen?
    Because I think one of the problems is their will. Is there 
a will within the current structure, who is, I think, 
benefiting quite a bit from the chaos and the way we are 
distributing money right now, and the inherent corruption.
    So if we could just go once over, we will let you go. 
Thanks.
    Ms. Fair. Well, FATA, for example--that aid should have 
been conditional upon the Pakistan government having a plan for 
political integration. The FATA Development Plan, which they 
marketed as integration, had nothing to do with political 
integration. Something as simple as extending the Political 
Parties Act so that FATA has genuine representative of the kind 
that Dr. Ahmed talked about, would have been incredibly 
valuable.
    I think that whatever ministry we engage--they need to come 
up with a plan.
    Now, so often, when I have read these plans, it looks as if 
an international contractor wrote them, because of the 
particular idiomatic English that has been employed. The 
Pakistanis themselves should come up with outcome measures, and 
we should agree upon the data that will be used to monitor 
success along those outcomes. And there needs to be a pretty 
serious plan for remediation if those outcome measures aren't 
met.
    So what I am basically saying is that we need to 
incentivize the Pakistani government to be partners, rather 
than merely, you know, recipients.
    Mr. Tierney. And I am only just now imagining what the 
reaction will be when we do that. We had a visit of about 30 
military people at one point in time. They came in with their 
hair on fire. And I had an opportunity to speak up in 
Cambridge, MA, on another occasion, and when I finished 
speaking in defense of the conditions, because we had been 
involved in putting them on, one half of the room stood up to 
berate us for treating them like children, and the other half 
of the room stood up to tell us, ``You should have had stronger 
conditions on there. You can't trust us.'' So it goes on.
    Dr. Wilder.
    Mr. Wilder. Yes, again, just to reiterate, don't ignore the 
civil service. I think that is an opportunity.
    I would also say that there is a tendency often, of the 
U.S. Government, to prefer to work with executive authority and 
the military. And I think we should not ignore the parliament 
in Pakistan. And I think USAID is supporting a parliamentary-
strengthening program.
    But I think that this is an area--it is linked also to the 
issue of center-periphery relations, or the relationship 
between the Federal Government and the provincial government in 
Pakistan, where there has been a tendency, I think, to overly 
centralize powers at the Federal level.
    And I think working through parliament and trying to 
strengthen parliament could be a positive--it is something I 
think the USAID should continue doing.
    And finally, just to also--to end on a positive note--is 
that----
    Mr. Tierney. Ah, the silver bullet arrives.
    Mr. Wilder. USAID has provided valuable support to the 
electoral process in Pakistan. And as someone who did my Ph.D. 
research on electoral politics in Pakistan, and has been 
present at virtually every election since 1970--I was 
monitoring the last one, and it was, you know, a considerable 
improvement over previous ones. And I think that there was 
valuable support from donors, in general, and the United 
States, in particular, for strengthening that process.
    But just to end, I think it is important that we, again, 
try to move away from this feast-and-famine approach. Because 
of the urgency of the moment--the tendency to, in some ways, 
often spend too much money in the short term. I mentioned in my 
written testimony, a Pakistani friend, last week, told me, 
``Try to convince them to view their support to Pakistan as a 
marathon, rather than a series of unsustainable sprints.''
    And I think, if I could just end on that note--let us take 
that long-term approach to our aid program for Pakistan. Thank 
you.
    Mr. Tierney. And, Doctor, you came the longest distance. 
The final word goes to you.
    Ms. Ahmed. [Off mic.]
    Mr. Tierney. How do you envision that support?
    Is your mic on, by the way? OK? And how do you envision 
that support? We hear a lot of times they need support--the 
civilian government needs support. Do they have the will to 
accept the support and do something with it? What exactly would 
that support look like to be effective?
    Ms. Ahmed. This is a public program that was announced from 
a public platform. This is not behind-closed-doors discussions. 
The reform package also came as the result of consultations 
with FATA representatives.
    Mr. Tierney. But I think you said that the military push-
back has stopped it from being implemented.
    Ms. Ahmed. Absolutely.
    Mr. Tierney. So how do we get beyond that?
    Ms. Ahmed. All you need right now is the president's 
directive to be--it is called a notification, sent to the 
Governor--and it is law. And that is where, I think, the 
president does need support.
    As you know, that is not the only front on which the 
president is being attacked by the military and other 
opposition power circles. That is one issue.
    The second, in terms of the legislature--and I have said 
this in our report. We have said it in the written testimony, 
and we have said it in our reports, and repeatedly--that in 
delivering assistance, make sure that there is a legislative 
connection to the monitoring aspects and the planning and the 
implementation aspects.
    Now, through the public account committees of the 
provincial and the Federal parliaments--and let me say this: 
These are very good committees, and they are functioning well. 
I think you can--you will have stakeholders, then, in a process 
that will also provide that missing link not just in terms of 
monitoring, but also in terms of community consultation.
    So let us go beyond--and I think it is great that USAID is 
helping build the capacity of the Pakistani legislature. But 
let us involve the legislators, the parliamentarians, in the 
kind of process that we are involved in, in Pakistan.
    You know, their collective history, if you look at how may 
parliaments they have served, it would be quite a couple of 
hundred years. So these are not novices. It is just that 
because there was no opportunity at constructive intervention, 
they were left out of the policy loop. And I think we can 
engage them now.
    Mr. Tierney. At the risk of being painfully obvious on 
this, but for the record, you talked about President Zardari 
needing only to issue a directive for that to become law. And, 
then, you talk about our support. Are we talking about the need 
for the U.S. Government, through the secretary of state or the 
president to make some public declaratory statement, or to work 
through our Department of Defense with the military to get them 
to back off?
    What types of support are you thinking of there?
    Ms. Ahmed. I do think publicly welcoming the reform effort 
would be a useful way to go--so at a high level, coming from 
the U.S. Government.
    Mr. Tierney. Well, I am going to have to ask for the 
panel's forbearance, here, for a second.
    Mr. Lynch, would you like to make an opening and a closing, 
and your questions?
    Mr. Lynch. I am sorry. There is a lot going on here at the 
same time. But I have been following the testimony in the 
anteroom.
    The question I had is: The problems that we have seen on 
both sides of the border, along the Pakistan and Afghanistan 
borders--at least what we have seen visiting the federally 
administered tribal areas and the Northwest Province area--
Frontier Province--are similar to what we are seeing on the 
Afghan side--and that is very weak government institutions that 
don't get out into those areas.
    And we seem to have seized upon a model where we pair USAID 
or some other NGO with a military-support group in order to get 
that done--a PRT model. And that is the model we have been 
pursuing here. And from what we have been hearing and seeing in 
Pakistan--is this the right model? Is this the right model that 
we are using here, because it doesn't seem to be the case from 
this end.
    And I worry about squandering the resources that we are 
dedicating toward this effort. And if we have to come up with 
another model that allows us the accountability and the 
transparency that we need to make sure the money is going to 
the people that we want to help, and that it has been used 
effectively.
    Then we have to come up with the right idea before we pump 
more money into their system, because, otherwise, it will just 
be wasted. And I wouldn't blame the American people one bit if 
they grew frustrated with, you know, just continually pumping 
money in here. We have to show some progress.
    You know, Dr. Wilder, you mentioned some of the areas that 
received the greatest amount of resources have shown very 
little progress. I am wondering, is it the model that we are 
trying to use--is it the wrong tool for this job?
    Mr. Wilder. Well, there is a serious problem between the 
need for quick results, when we are not going to get quick 
results. State-building can't be done on the quick. It is a 
generational thing. It is a long-term process. And that is the 
critical----
    Mr. Lynch. Just to distinguish--some of the PRT models are 
very long term. And so it is not an idea that we are going to 
go in there with a PRT and turn things around in a matter of 
months, or even a couple of years. It is capacity-building.
    I am more concerned that framework--the pairing of a 
military unit with the capacity to allow some of the 
development work to go forward--is that the wrong model here, 
or should we be trying something different?
    Mr. Wilder. Sorry--are you talking about Afghanistan? 
Because, in Pakistan, I think the PRT model would certainly not 
be a good option.
    I mean, I think part of my problem with the PRT model in 
Afghanistan is that Afghanistan has never had much in the way 
of government, and the same in FATA, in these areas.
    So I am not sure that it is actually the weak government in 
some of these areas which is also fueling the insecurity. My 
concern with the PRT model is the more we end up doing with 
this civil military teams, the more we end up, in a way, 
setting up the Afghan government to fail, because they don't 
have the capacity to come in and take over.
    The more we end up doing with our PRTs, the more it 
complicates an exit strategy, because who is going to step in 
and do this eventually?
    I mean, I think we do need a long-term process of trying to 
buildup government institutions and capacity. But that is not 
going to happen in the timeframes within which--even the 5-year 
or 10-year timeframes we are talking about, in terms of our 
troop presence in places like Afghanistan.
    I think this is where the problem is. There isn't a quick 
fix. And the military--civil military--the PRT model is a stop-
gap measure. It is not a long-term solution.
    Mr. Lynch. OK. I do want to say thank you for your 
willingness to come before the committee and help us with our 
work. This is a very complicated situation. And your insight 
and your astute observations are very helpful to us. So thank 
you.
    Mr. Tierney. Thank you, Mr. Lynch.
    Again, I thank all of you very much. Your work has helped 
inform what we will be discussing with the administration's 
witnesses when they come.
    And Mr. Flake and I were discussing the need for us to try 
and make sure that some of what you shared with us gets 
reflected in our work going forward. So you have been 
tremendously helpful.
    We thank you for coming to Washington, and thank you for 
coming all the way from Pakistan, as well; and for the written 
testimony, as well as your verbal testimony. And I know that we 
can take the liberties of coming back to you again, as we do so 
often. But your help is important. And thank you very, very 
much for it. Meeting adjourned.
    [Whereupon, at 12:01 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
